Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

September 30, 2020
BY ELECTRONIC FILING
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

City of Miami Gardens v. Wells Fargo & Co., et al., No. 20-405

Dear Mr. Harris:
I represent respondents in the above-referenced petition for certiorari. A response is
currently due on October 29, 2020. Respondent respectfully requests that the time to file a
response be extended by 30 days, to and including November 30, 2020 (November 28 is a
Saturday).
The extension is warranted because the undersigned counsel, Neal Katyal, must
familiarize himself with the issues and record. In addition, Mr. Katyal has upcoming deadlines
in several other matters that will require his attention over the coming weeks, including a petition
for certiorari in Market Graphics, Inc. v. Berge, No. 18-6177 (6th Cir.), due October 5; a petition
for certiorari in Babcock v. Commissioner of Social Security, No. 19-1687 (6th Cir.), due
October 8; a petition for rehearing and rehearing en banc in City of Oakland v. Wells
Fargo & Co., No. 19-15169 (9th Cir.), due October 9; a petition for certiorari in IQVIA Inc. v.
Mussat, No. 19-1204 (7th Cir.), due October 12; a petition for certiorari in The Episcopal Church
v. The Episcopal Diocese of Fort Worth, No. 18-0438 (Tex.), due October 19; oral argument in
Fulton v. City of Philadelphia, No. 19-123 (U.S.), on November 4; and a merits reply brief in
Nestlé USA, Inc. v. John Doe I, No. 19-416 (U.S.), due November 13. Given these
commitments, an extension of time is warranted to permit Mr. Katyal to prepare a response that
fully analyzes and responds to the arguments raised in the petition for certiorari.
Respectfully submitted,
/s/ Neal Kumar Katyal
Neal Kumar Katyal
Counsel of Record for Respondents
cc:

Robert S. Peck, Center for Constitutional Litigation, PC

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US
LLP and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai Dusseldorf
Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan Minneapolis
Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rome San Francisco São Paulo Shanghai Silicon Valley Singapore Sydney Tokyo
Warsaw Washington, D.C. Associated Offices: Budapest Jakarta Riyadh Shanghai FTZ Ulaanbaatar Zagreb. Business Service Centers: Johannesburg Louisville.
Legal Services Center: Berlin. For more information see www.hoganlovells.com

